No. 19-99
In the

Supreme Court of the United States
__________________

NORTHERN KENTUCKY AREA DEVELOPMENT DISTRICT,
Petitioner,
v.
DANIELLE SNYDER,
__________________

Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Kentucky

__________________

BRIEF IN OPPOSITION
__________________
SHANE C. SIDEBOTTOM
Counsel of Record
ZIEGLER & SCHNEIDER, P.S.C.
541 Buttermilk Pike, Suite 500
P.O. Box 175710
Covington, Kentucky 41017
(859)-426-1300
ssidebottom@zslaw.com
Counsel for Respondent
Danielle Snyder
October 7, 2019

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether the Federal Arbitration Act (“FAA”), 9
U.S.C. § 2, preempted Ky. Rev. Stat. § 336.700(2) (since
amended as of June 27, 2019), which invalidated
arbitration agreements between a government entity
and an employee of such, or whether the statute
instead presented a “generally applicable contract
defense” that could withstand preemption under the
FAA.

ii
PARTIES TO THE PROCEEDINGS AND
RULE 29.6 STATEMENT
All parties to the proceedings are listed in the
caption. None of the parties have a parent corporation.
STATEMENT OF RELATED PROCEEDINGS
The following cases are directly related to the
Petition before the Court:
Snyder v. Northern Kentucky Area Development
District, Kentucky Supreme Court, Case No. 2017-SC000277-DG, Judgment entered on September 27, 2018,
and Petition for Rehearing denied on April 18, 2019.
Snyder v. Northern Kentucky Area Development
District, Kentucky Court of Appeals, Case No. 2015CA-001167-MR, Judgment entered on May 12, 2017.
Snyder v. Northern Kentucky Area Development
District, Boone Circuit Court, Case No. 14-CI-01622,
Order denying NKADD’s Motion to Stay the
Proceedings and Compel Arbitration entered on March
23, 2015, and Order denying NKADD’s Renewed
Motion to Compel Arbitration entered on July 17, 2015.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS AND
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
LEGAL STANDARD . . . . . . . . . . . . . . . . . . . . . . . . . 3
COUNTER STATEMENT OF THE CASE . . . . . . . . 4
REASONS TO DENY THE PETITION . . . . . . . . . . 7
I. THE ISSUE BEFORE THE COURT IS NOW
MOOT DUE TO AMENDMENTS MADE BY
THE KENTUCKY LEGISLATURE TO KY.
REV. STAT. § 336.700 . . . . . . . . . . . . . . . . . . . . . 7
II. THE APPLICATION OF THE FAA IS
LIMITED BY THE AUTHORIZATION OF THE
STATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
APPENDIX
Old Version of
Ky. Rev. Stat. § 336.700 . . . . . . . . . . Resp. App. 1
Newly Amended Version of
Ky. Rev. Stat. § 336.700 . . . . . . . . . . Resp. App. 2
Kentucky Whistleblower Act 61.102 . . . Resp. App. 5

iv
TABLE OF AUTHORITIES
CASES
Bank of America, N.A. v. District of Columbia,
80 A.3d 650 (D.C. 2013),
cert denied, 134 S. Ct. 2293 (2014). . . . . . . . 11, 12
Clements v. Gonzales,
496 F. Supp. 2d 70 (D.D.C. 2007). . . . . . . . . . . . . 3
District of Columbia v. Greene,
806 A.2d 216 (D.C. 2002) . . . . . . . . . . . . . . . 11, 12
Kindred Nursing Centers Limited Partnership v.
Clark, 137 S. Ct. 1421 (2017) . . . . . . . . . . . . . . . . 6
Layne & Bowler Corp. v. Western Well Works,
261 U.S. 387 (1923). . . . . . . . . . . . . . . . . . . . . . . . 4
N.L.R.B. v. Pittsburgh S.S. Co.,
340 U.S. 498 (1951). . . . . . . . . . . . . . . . . . . . . . . . 4
Russell Cty. Sch. Bd. v. Conseco Life Ins. Co.,
2001 WL 1593233 (W.D. Va. 2001) . . . . . . . . . . 10
United States v. Lopez,
514 U.S. 549 (1995). . . . . . . . . . . . . . . . . . . . . . . . 9
Valued Servs. of Ky., LLC v. Watkins,
309 S.W.3d 256 (Ky. Ct. App. 2009). . . . . . . . . . 13
Volt Info. Scis., Inc. v. Bd. of Trs. of Leland
Stanford Junior Univ., 489 U.S. 468 (1989) . . . 13
W.M. Schlosser Co. v. Sch. Bd. of Fairfax Cty.,
980 F.2d 253 (4th Cir. 1992),
cert denied, 113 S. Ct. 2340 (1993). . . 9, 10, 11, 12

v
CONSTITUTION AND STATUTES
U.S. Const. amend. X . . . . . . . . . . . . . . . . . . . . . . . 1, 9
9 U.S.C. § 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Ky. Rev. Stat. § 61.102 . . . . . . . . . . . . . . . . . . . . . . 5, 9
Ky. Rev. Stat. § 336.700 . . . . . . . . . . . . . . . . . . passim
Ky. Rev. Stat. § 336.700(2). . . . . . . . . . . . . . . . . . . 5, 6
RULE
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4

1
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The Tenth Amendment of the Constitution provides,
“[t]he powers not delegated to the United States by the
Constitution, nor prohibited by it to the States, are
reserved to the States respectively, or to the people.”
U.S. Const. amend. X.
Section 2 of the Federal Arbitration Act, herein
“FAA”, 9 U.S.C. § 2, provides:
A written provision in . . . a contract evidencing
a transaction involving commerce to settle by
arbitration a controversy thereafter arising out
of such contract or transaction… shall be valid,
irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the
revocation of any contract.
Ky. Rev. Stat. § 336.700, prior to June 27, 2019,
provided that:
[N]o employer shall require as a condition or
precondition of employment that any employee
or person seeking employment waive, arbitrate,
or otherwise diminish any existing or future
claim, right, or benefit to which the employee or
person seeking employment would otherwise be
entitled under any provision of the Kentucky
Revised Statutes or any federal law.
It has since been amended and, as of June 27,
2019, Ky. Rev. Stat. § 336.700 provides:

2
(2) Notwithstanding any provision of the
Kentucky Revised Statutes to the contrary and
except as provided in subsection (3) of this
section, no employer shall require as a condition
or precondition of employment that any
employee or person seeking employment waive
or otherwise diminish any existing or future
claim, right, or benefit to which the employee or
person seeking employment would otherwise be
entitled under any provision of the Kentucky
Revised Statutes or any federal law.
(3) Notwithstanding subsection (2) of this
section:
(a) Any employer may require an employee or
person seeking employment to execute an
agreement for arbitration, mediation, or other
form of alternative dispute resolution as a
condition or precondition of employment.”
INTRODUCTION
Certiorari should not be granted in this case. This
petition has been made with disregard to the Kentucky
Legislature’s action in response to the issue through
their amendment of Ky. Rev. Stat. § 336.700.
Alternatively, the Respondent has not argued that the
FAA was not generally applicable to contracts in
Kentucky. The Respondent has argued that the FAA is
not applicable to contracts pertaining to public
employment contracts made with the Commonwealth,
as the FAA does not govern or restrict a sovereign
state’s right to enter into contracts.

3
LEGAL STANDARD
The Court, authorized by Congress, has retained the
ability to govern its own grounds for its appellate
jurisdiction. See Clements v. Gonzales, 496 F. Supp. 2d
70, 74 (D.D.C. 2007). Additionally, it has been long held
that appeal to the Supreme Court of the United States
is not a matter of right, but one of “judicial discretion.”
Id. at 72. Pursuant to Supreme Court Rule 10:
Review on a writ of certiorari is not a matter of
right, but of judicial discretion. A petition for a
writ of certiorari will be granted only for
compelling reasons. The following, although
neither controlling nor fully measuring the
Court’s discretion, indicate the character of the
reasons the Court considers:
(a) a United States court of appeals has entered
a decision in conflict with the decision of another
United States court of appeals on the same
important matter; has decided an important
federal question in a way that conflicts with a
decision by a state court of last resort; or has so
far departed from the accepted and usual course
of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an
exercise of this Court’s supervisory power;
(b) a state court of last resort has decided an
important federal question in a way that
conflicts with the decision of another state court
of last resort or of a United States court of
appeals;

4
(c) a state court or a United States court of
appeals has decided an important question of
federal law that has not been, but should be,
settled by this Court, or has decided an
important federal question in a way that
conflicts with relevant decisions of this Court.
A petition for a writ of certiorari is rarely
granted when the asserted error consists of
erroneous factual findings or the misapplication
of a properly stated rule of law.
Sup. Ct. R. 10. Certiorari is only be permitted where
there is a case of importance generally to the public or
where there is an ideological conflict between the
Circuit Courts of Appeal. Settlement. N.L.R.B. v.
Pittsburgh S.S. Co., 340 U.S. 498, 502 (1951) (citing
Layne & Bowler Corp. v. Western Well Works, 261 U.S.
387, 393 (1923)).
COUNTER STATEMENT OF THE CASE
Respondent, Danielle Snyder (“Ms. Snyder”), is a
former employee of the Appellant, Northern Kentucky
Area Development District (“NKADD”), a taxpayerfunded political subdivision of the Commonwealth of
Kentucky. In October of 2011, NKADD offered Ms.
Snyder a job as a receptionist. As a condition of her
employment, Ms. Snyder was required to sign an
arbitration agreement that would waive her right to a
court or jury trial for any future legal claim that
manifested during her employment. It is undisputed
that NKADD conditioned Ms. Snyder’s employment on
signing an agreement to arbitrate future claims,
though the employment condition, at the time of

5
signing, was in violation of Ky. Rev. Stat. § 336.700(2).
This statute previously prohibited employers from
conditioning a person’s prospective employment on his
or her agreement to waive rights or arbitrate future
claims.
Following Ms. Snyder’s hiring, she was promoted
and eventually discovered fraudulent expenditures on
the company credit card. (Pet. App. 31). She reported
this activity and was punished by being sent to an
educational seminar that only “bad employees” were
sent. (Pet. App. 31). She continued to report ongoing
fraudulent expenditures to the Executive Director of
the NKADD. The Executive Director met with Ms.
Snyder on August 5th and informed her that she was
under investigation and asked her what it would take
for her to resign. Ms. Snyder refused to resign, and she
was terminated on August 11th, 2014. Ms. Snyder then
filed in state court a statutory action against NKADD
for violation of the Kentucky Whistleblower law, under
Ky. Rev. Stat. § 61.102, and refusal of payment for
worked overtime. Ky. Rev. Stat. § 61.102 is a special
remedy statute that allows public employees to file suit
when adverse actions have been taken against them by
a public employer following a reporting of a violation of
Kentucky or Federal law. (Resp. App. 5-7).
In response to the action, NKADD sought to compel
arbitration, which was denied by the Boone County
Circuit Court which opined that the FAA did not apply
to the agreement, and even if it did, it did not preempt
Ky. Rev. Stat. § 336.700(2). (Pet. App. 49). NKADD
continued to pursue arbitration of the action. Again,
the Boone County Circuit Court denied the motion to

6
compel, after being re-assigned to a new judge. (Pet.
App. 33-43).
The NKADD appealed that decision to the Kentucky
Court of Appeals. (Pet. App. 16). The Court of Appeals
found that the FAA preempted Ky. Rev. Stat.
§ 336.700(2) when an employer is a private entity. (Pet.
App. 23). They did not hold that it preempted the
statute when it is a public entity stating that the
Commonwealth was allowed to deal with how
government entities handled their own contracts. (Pet.
App. 28). The Court of Appeals ultimately found that
the arbitration agreement between Ms. Snyder and
NKADD was invalid and affirmed the lower court’s
decision. Id.
The Petitioner then moved for discretionary review
with the Kentucky Supreme Court. (Pet. App. 1) That
Court also found that the FAA did not preempt the
Kentucky statute. (Pet. App. 14). The Kentucky
Supreme Court held that Ky. Rev. Stat. § 336.700(2)
fell under a “generally applicable contract defense”, as
provided by Kindred Nursing Centers Limited
Partnership v. Clark, 137 S. Ct. 1421 (2017). (Pet. App.
10-11). The Court also found that the statue does not
single out arbitration clauses. (Pet. App. 11). As such,
in ruling that the statue was a law of general
applicability, it correctly asserted that the statute
treated arbitration agreements equally to any other
contract and found for Ms. Snyder. (Pet. App. 14)
The NKADD then filed this petition for writ of
certiorari.

7
REASONS TO DENY THE PETITION
I. THE ISSUE BEFORE THE COURT IS NOW
MOOT DUE TO AMENDMENTS MADE BY
THE KENTUCKY LEGISLATURE TO KY. REV.
STAT. § 336.700.
In response to the decision issued by the Kentucky
Supreme Court, the Kentucky Legislature amended
Ky. Rev. Stat. § 336.700, which, as of June 27, 2019,
renders the issue in this case moot. This court should
thus deny the petition as the amended statute allows
for the requirement of an employee by an employer to
execute an arbitration agreement as a condition or
precondition of employment. See Ky. Rev. Stat.
§ 336.700. As cited by the Petitioner, the previous
language of the statute read:
[N]o employer shall require as a condition or
precondition of employment that any employee
or person seeking employment waive, arbitrate,
or otherwise diminish any existing or future
claim, right, or benefit to which the employee or
person seeking employment would otherwise be
entitled under any provision of the Kentucky
Revised Statutes or any federal law.
(Pet. Writ. for Cert. at i, Resp. App. 1 ). Since the
opinion of the Supreme Court of Kentucky was issued,
the legislature has amended the statute to read:
(2) Notwithstanding any provision of the
Kentucky Revised Statutes to the contrary and
except as provided in subsection (3) of this
section, no employer shall require as a condition
or precondition of employment that any

8
employee or person seeking employment waive
or otherwise diminish any existing or future
claim, right, or benefit to which the employee or
person seeking employment would otherwise be
entitled under any provision of the Kentucky
Revised Statutes or any federal law.
(3) Notwithstanding subsection (2) of this
section:
(a) Any employer may require an employee or
person seeking employment to execute an
agreement for arbitration, mediation, or other
form of alternative dispute resolution as a
condition or precondition of employment.
Ky. Rev. Stat. § 336.700. (Resp. App. 2-5 ). As the new
language of the statute directly remedies the issue
presented by the petitioner, this case is now moot and
this Court should deny the petition before it.
II. THE APPLICATION OF THE FAA IS LIMITED
BY THE AUTHORIZATION OF THE STATE.
Even if this issue was no longer moot, the
Respondent concedes that the FAA did preempt Ky.
Rev. Stat. § 336.700 prior to the June 27, 2019
amendment. Respondent has never argued at any court
below that the FAA does not govern generally. The only
issue that the Respondent litigated is that the FAA
does not apply to a state government’s ability to
regulate contracts made with state government. The
Kentucky Legislature has the authority to regulate any
agreements made between state government entities
and their employees.

9
As this Court has held repeatedly our government
operates under a constitutional system of federalism
and separation of powers, in which the sovereign rights
of the states should be given the utmost respect and
not unduly abridged. United States v. Lopez, 514 U.S.
549 (1995). Despite federal policy favoring arbitration,
the NKADD cannot rely on an interpretation that
would unconstitutionally tread on Kentucky’s sovereign
right to govern its internal affairs.
The Boone Circuit Court succinctly explained, both
principles of federalism and the Tenth Amendment to
the United State Constitution militate against
NKADD’s position. (Pet. App. 34-43). In enacting Ky.
Rev. Stat. § 336.700, the Kentucky General Assembly
lawfully withheld the authority of its political
subdivisions to enter into pre-employment arbitration
agreements. Likewise, in enacting the Kentucky
Whistleblower Act (Ky. Rev. Stat. § 61.102), the
General Assembly gave the public taxpayers an
important role in its enforcement. The right of the
Kentucky legislature to enact both of these statutes,
which unquestionably regulate the internal affairs of
the state, must be afforded the constitutional respect it
deserves. The undersigned counsel has been unable to
locate a single case construing the FAA as superseding
a state’s constitutional authority to regulate the
internal affairs and powers of its political subdivisions.
The FAA does not govern or restrict a sovereign state’s
right to enter contracts.
An example of this is clearly present in a case that
this court has previously denied cert. W.M. Schlosser
Co. v. Sch. Bd. of Fairfax Cty., 980 F.2d 253 (4th Cir.

10
1992), cert denied 113 S. Ct. 2340 (1993).1 In Schlosser,
the Fourth Circuit held that a state’s laws that
withheld authority from its local governments to enter
into arbitration agreements were not pre-empted by
the FAA, and any attempt by the local government to
execute an arbitration agreement was invalid and
unenforceable as a matter of law. Presented before the
Court in that case, an out-of-state construction
contractor had filed a motion under the FAA to compel
arbitration against a Virginia public school board. Id.
In denying the contractor’s motion, the Fourth
Circuit first cited to Virginia’s well-established “Dillon”
rule that local governing bodies such as counties,
municipal corporations, and school boards “possess and
can exercise only those powers expressly granted by the
General Assembly, those necessarily or fairly implied
therefrom, and those that are essential and
indispensable.” Id. at 255 (internal citations omitted).
The Court then noted that a Virginia procurement
statute requiring its local governments to settle
contractual disputes in a specific manner evidenced an
intent by the Virginia General Assembly that the
school board did not have the ability to arbitrate
contractual disputes. Id. at 256-57. The Court expressly
rejected the contractor’s contention that the Dillon rule
was pre-empted by the FAA, finding it was a rule of

1

Note that Schlosser was superseded by statute as stated in
Russell Cty. Sch. Bd. v. Conseco Life Ins. Co., 2001 WL 1593233
(W.D. Va. 2001). The Virginia General Assembly passed legislation
after Schlosser was decided granting public bodies the specific
authority to enter into arbitration agreements similar to the
current case.

11
general applicability that defines and invalidates all
ultra vires acts of local governing bodies. Id. at 259.
Finally, the Court explained, “As a general rule of
contract formation, [the Dillon rule] constitutes a
ground[] as exists at law or in equity for the revocation
of any contract within the meaning of 9 U.S.C. § 2. As
such, it falls within the exception to section 2’s general
rule of enforceability of arbitration provisions, and
therefore is not preempted by the FAA.” Id. (internal
citations and quotations omitted).
The District of Columbia Court of Appeals has also
agreed on multiple occasions with Schlosser in finding
that where a state statute designates a specific forum
for claims against the state to be made, it acts as a
prohibition against a public official’s authority to enter
into an arbitration agreement on behalf of a
governmental entity, and any purported agreement
made in violation of that prohibition is void and
unenforceable, regardless of the FAA’s policy favoring
arbitration. See District of Columbia v. Greene, 806
A.2d 216 (D.C. 2002); followed by Bank of America,
N.A. v. District of Columbia, 80 A.3d 650 (D.C. 2013),
cert denied, 134 S. Ct. 2293 (2014). In expressly
rejecting the argument that the FAA pre-empts state
law restrictions on the authority of public officials to
bind local governments to arbitration, the District of
Columbia Court of Appeals highlighted the flawed logic
in the FAA pre-emption argument:
What [the pre-emption] argument does is to
mistake the authority of a state to bar
enforcement of otherwise valid arbitration
agreements -- a power denied the state except

12
insofar as § 2 permits -- for the authority of a
government contracting for goods or services in
its own behalf to refuse to agree to arbitrate
disputes…
In effect, then, the statute withholds from the
District’s contracting officers the power to agree
to arbitration (or, for that matter, to agree to
any form of dispute resolution other than
administrative), just as any private corporation
or individual may refuse to arbitrate. It is a
basic principle of District law that a contracting
official cannot obligate the District to a contract
in excess of his or her actual authority.”
Greene, 806 A.3d at 221-22. Notably, this issue has
been fully litigated as the U.S. Supreme Court denied
certiorari in both the Schlosser and Bank of America
cases.
The rule under Kentucky law in this case calling for
strict construction of the powers of its political
subdivisions is identical to the laws of Virginia and the
District of Columbia, both of which have been upheld
against challenges that they are pre-empted by the
FAA.
Further, in enacting Ky. Rev. Stat. § 336.700, prior
to its recent amendment, the Kentucky General
Assembly has done nothing more than recognized the
weight of the bargaining positions between employers
and employees and has sought to place them in an
equal bargaining position. By making it unlawful for
employers to condition the prospect of employment on
an agreement to arbitrate, the General Assembly has

13
simply ensured that employers cannot use their
superior bargaining power to coerce job applicants into
accepting such agreements through ultimatum.
Ky. Rev. Stat. § 336.700 bolsters the federal policy
in favor of arbitration, because it ensures that any
valid arbitration agreement between an employer and
employee will have been the result of the mutual
consent of the parties, rather than coercion, which is
entirely consistent with the aims of the FAA itself. See
Volt Info. Scis., Inc. v. Bd. of Trs. of Leland Stanford
Junior Univ., 489 U.S. 468, 478 (1989) (“Arbitration
under the Act is a matter of consent, not coercion…”);
see also Valued Servs. of Ky., LLC v. Watkins, 309
S.W.3d 256, 263-64 (Ky. Ct. App. 2009) (“There is no
denying that many decisions proclaim that federal
policy favors arbitration, but this differs from saying
that courts read contracts to foist arbitration on parties
who have not genuinely agreed to that device.”)
(internal citations omitted)). If an employer and
employee enter into an arbitration agreement for
consideration separate and distinct from the position of
employment itself, which, of course, could even include
their mutual assent to arbitrate claims, it makes it that
much more difficult to refute the validity of such
agreements.
However, the aforementioned arguments are only
applicable to the former language of the statute. That
statute has been since amended by the Kentucky
Legislature and renders the decision of the Kentucky
Supreme Court and the issue brought in the petition
for writ of certiorari moot.

14
CONCLUSION
For the foregoing reasons, the Court should deny
the Petition for Writ of Certiorari.
Respectfully submitted,
SHANE C. SIDEBOTTOM
Counsel of Record
ZIEGLER & SCHNEIDER, P.S.C.
541 Buttermilk Pike, Suite 500
P.O. Box 175710
Covington, Kentucky 41017
(859)-426-1300
ssidebottom@zslaw.com
Counsel for Respondent
Danielle Snyder
Dated: October 7, 2019

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Old Version of
Ky. Rev. Stat. § 336.700 . . . . . . . . . . Resp. App. 1
Newly Amended Version of
Ky. Rev. Stat. § 336.700 . . . . . . . . . . Resp. App. 2
Kentucky Whistleblower Act 61.102 . . . Resp. App. 5

Resp. App. 1

APPENDIX
Old Version of Ky. Rev. Stat. § 336.700:
“336.700 Prohibition against requiring waiver of
statutory rights as a condition of employment
(1) As used in this section, “employer” means any
person, either individual, corporation, partnership,
agency, or firm, that employs an employee and includes
any person, either individual, corporation, partnership,
agency, or firm, acting directly or indirectly in the
interest of an employer in relation to an employee; and
“employee” means any person employed by or suffered
or permitted to work for an employer.
(2) Notwithstanding any provision of the Kentucky
Revised Statutes to the contrary, no employer shall
require as a condition or precondition of employment
that any employee or person seeking employment
waive, arbitrate, or otherwise diminish any existing or
future claim, right, or benefit to which the employee or
person seeking employment would otherwise be
entitled under any provision of the Kentucky Revised
Statutes or any federal law.”

Resp. App. 2
Newly Amended Version of Ky. Rev. Stat.
§ 336.700:
“336.700 Prohibition against requiring waiver of
statutory rights as a condition of employment;
exceptions; arbitration agreements
(1) As used in this section, “employer” means any
person, either individual, corporation, partnership,
agency, or firm, that employs an employee and includes
any person, either individual, corporation, partnership,
agency, or firm, acting directly or indirectly in the
interest of an employer in relation to an employee; and
“employee” means any person employed by or suffered
or permitted to work for an employer.
(2) Notwithstanding any provision of the Kentucky
Revised Statutes to the contrary and except as
provided in subsection (3) of this section, no employer
shall require as a condition or precondition of
employment that any employee or person seeking
employment waive or otherwise diminish any existing
or future claim, right, or benefit to which the employee
or person seeking employment would otherwise be
entitled under any provision of the Kentucky Revised
Statutes or any federal law.
(3) Notwithstanding subsection (2) of this section:
(a) Any employer may require an employee or person
seeking employment to execute an agreement for
arbitration, mediation, or other form of alternative
dispute resolution as a condition or precondition of
employment;

Resp. App. 3
(b) Any employer may require a former employee to
execute an agreement to waive an existing claim as a
condition or precondition for the rehiring of the former
employee as part of a settlement of pending litigation
or other legal or administrative proceeding;
(c) Any employer may require an employee or person
seeking employment to execute an agreement to
reasonably reduce the period of limitations for filing a
claim against the employer as a condition or
precondition of employment, provided that the
agreement does not apply to causes of action that arise
under a state or federal law where an agreement to
modify the limitations period is preempted or
prohibited, and provided that such an agreement does
not reduce the period of limitations by more than fifty
percent (50%) of the time that is provided under the
law that is applicable to the claim; and
(d) Any employer may require, as a condition or
precondition of employment, an employee or person
seeking employment to agree for the employer to obtain
a background check or similar type of personal report
on the employee or person seeking employment in
conformance with a state or federal law that requires
the consent of the individual prior to an employer’s
receipt or use of such a report.
(4) An arbitration agreement executed by an employer
and an employee or a candidate for employment under
subsection (3)(a) of this section shall be subject to
general contract defenses as may be applicable in a
particular controversy, including fraud, duress, and
unconscionability.

Resp. App. 4
(5) In accordance with the Federal Arbitration Act,
arbitration under subsection (3)(a) of this section shall
safeguard the effective vindication of legal rights,
including:
(a) Providing a reasonable location for the arbitration;
(b) Mutuality of obligation sufficient to support the
agreement to arbitrate;
(c) Ensuring procedural fairness for the parties to
access arbitration, including a fair process for selecting
an impartial arbitrator and the equitable, lawful
allocation of arbitration costs between the parties;
(d) Ensuring that the parties to the agreement shall
have at least one (1) channel for the pursuit of a legal
claim, either by requiring the claim to be arbitrated
individually pursuant to the agreement or otherwise;
and
(e) Empowering the arbitrator to award all types of
relief for a particular type of claim that would
otherwise be available for a party through judicial
enforcement, including punitive damages as provided
by law.
(6) An arbitrator selected to arbitrate an agreement
entered into pursuant to this section shall disqualify
himself or herself if he or she has any of the conflicts
enumerated under KRS 26A.015(2).
(7) If an arbitration agreement fails to specify the
manner of procedure to govern the arbitration process,
such as, for example, by failing to designate arbitral
protocols promulgated by the American Arbitration

Resp. App. 5
Association or similar organization, then the arbitrator
shall use the Kentucky Rules of Civil Procedure in the
conduct of the arbitration.
(8) This section shall apply prospectively and
retroactively. Any provision of an agreement executed
prior to June 27, 2019, that violates the requirements
of subsection (3)(c) of this section shall be stricken from
the agreement and shall not operate to invalidate the
entire agreement.
(9) The provisions of this section shall not apply to
collective bargaining agreements entered into between
employers and the respective representatives of
member employees.”
Kentucky Whistleblower Act 61.102:
“61.102 Reprisal against public employee for disclosure
of violations of law prohibited; construction of statute
(1) No employer shall subject to reprisal, or directly or
indirectly use, or threaten to use, any official authority
or influence, in any manner whatsoever, which tends to
discourage, restrain, depress, dissuade, deter, prevent,
interfere with, coerce, or discriminate against any
employee who in good faith reports, discloses, divulges,
or otherwise brings to the attention of the Kentucky
Legislative Ethics Commission, the Attorney General,
the Auditor of Public Accounts, the Executive Branch
Ethics Commission, the General Assembly of the
Commonwealth of Kentucky or any of its members or
employees, the Legislative Research Commission or
any of its committees, members or employees, the
judiciary or any member or employee of the judiciary,
any law enforcement agency or its employees, or any

Resp. App. 6
other appropriate body or authority, any facts or
information relative to an actual or suspected violation
of any law, statute, executive order, administrative
regulation, mandate, rule, or ordinance of the United
States, the Commonwealth of Kentucky, or any of its
political subdivisions, or any facts or information
relative to actual or suspected mismanagement, waste,
fraud, abuse of authority, or a substantial and specific
danger to public health or safety. No employer shall
require any employee to give notice prior to making
such a report, disclosure, or divulgence.
(2) No employer shall subject to reprisal or
discriminate against, or use any official authority or
influence to cause reprisal or discrimination by others
against, any person who supports, aids, or
substantiates any employee who makes public any
wrongdoing set forth in subsection (1) of this section.
(3) This section shall not be construed as:
(a) Prohibiting an employer from requiring that an
employee inform him or her of an official request made
to an agency for information, or the substance of
testimony made, or to be made, by the employee to
legislators on behalf of an agency;
(b) Permitting the employee to leave his or her
assigned work area during normal work hours without
following applicable law, administrative regulations,
rules, or policies pertaining to leave, unless the
employee is requested by the Kentucky Legislative
Ethics Commission or the Executive Branch Ethics
Commission to appear before the commission, or by a

Resp. App. 7
legislator or a legislative committee to appear before a
legislative committee;
(c) Authorizing an employee to represent his or her
personal opinions as the opinions of his or her
employer; or
(d) Prohibiting disciplinary or punitive action if an
employee discloses information which he or she knows:
1. To be false or which he or she discloses with reckless
disregard for its truth or falsity;
2. To be exempt from required disclosure under the
provisions of KRS 61.870 to 61.884; or
3. Is confidential under any other provision of law.”

